Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   AVERAGE SALES PRICES:
  MANUFACTURER REPORTING
    AND CMS OVERSIGHT




                    Daniel R. Levinson
                     Inspector General

                      February 2010
                     OEI-03-08-00480
   E X E C U T I V E                         S U M M A R Y


                  OBJECTIVES
                  1. To determine whether manufacturers that reported average sales
                     price (ASP) data to the Centers for Medicare & Medicaid Services
                     (CMS) did so within the timeframe required by Federal law.

                  2. To review CMS’s oversight procedures for the submission of ASP
                     data.

                  3. To quantify the number of manufacturers that provided ASPs to
                     CMS but were not required to do so under the current system.


                  BACKGROUND
                  CMS continues to cover a limited number of outpatient prescription
                  drugs under its Part B benefit. Since January 2005, CMS has been
                  paying for most Part B-covered drugs using a payment methodology
                  based on ASP. ASP is defined as a manufacturer’s sales of a drug to all
                  purchasers in the United States in a calendar quarter divided by the
                  total number of units of the drug sold by the manufacturer in that same
                  quarter.

                  Section 1927 of the Social Security Act (the Act) sets forth ASP
                  reporting requirements for manufacturers. Pursuant to section 1927 of
                  the Act, manufacturers with Medicaid drug rebate agreements in effect
                  must, among other things, provide CMS with pricing information,
                  including the ASPs for their Part B-covered drugs. However, drug
                  coverage under Medicaid differs from drug coverage under Medicare
                  Part B. Therefore, Medicaid rebate agreements may not be applicable
                  for certain manufacturers given the differences in coverage.

                  Manufacturers that report ASPs are required to submit them to CMS no
                  later than 30 days after the close of the previous quarter. As a result,
                  there is a two-quarter lag between the time when sales reflected in the
                  ASP occur and the time when these sales become the basis for Medicare
                  payment amounts.

                  To fulfill their reporting requirements, manufacturers typically mail a
                  floppy or compact disc containing ASP data to CMS. CMS staff
                  manually enter all ASP data received from manufacturers into
                  quarterly ASP files prior to calculating the Medicare payment amounts
                  for Part B-covered drugs. CMS posts the payment amounts on its public
                  Web site 2 weeks before the start of the applicable quarter (i.e.,
                  approximately 6 to 7 weeks after the submission deadline).

OEI-03-08-00480   AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT    i
E X E C U T I V E             S U M M A R Y


                   For 2007 and the first two quarters of 2008, we used CMS tracking
                   spreadsheets, ASP pricing files, a list of labeler codes associated with
                   manufacturers required to submit drug-pricing data, an interview with
                   CMS, and a review of relevant documents to accomplish our three
                   objectives.


                   FINDINGS
                   Each quarter, over 40 percent of manufacturers submitted ASPs
                   late; most late submissions were within 10 days of the deadline.
                   For each quarter under review, between 41 and 52 percent of
                   manufacturers provided ASPs after the statutorily defined due date.
                   However, at least 95 percent of manufacturers submitted ASP data to
                   CMS within 10 days after the deadline. Further, no more than
                   2 percent of manufacturer submissions each quarter were more than
                   30 days late. Late submissions did not seem to have an effect on the
                   Medicare payment amount because there is a 6- to 7-week period
                   between the date ASP data are due and the publication of the payment
                   amounts.
                   CMS implemented oversight procedures for ASP data; however,
                   CMS’s data collection and analysis methods introduce the
                   potential for inefficiency and errors. CMS has implemented several
                   oversight procedures related to payment for Part B-covered drugs.
                   From the time it receives a manufacturer’s submission to the time
                   payment amounts are posted on the Web site, CMS performs multiple
                   quality assurance checks. CMS is also coordinating with the Office of
                   Inspector General (OIG) to identify manufacturers that do not submit
                   ASP data in a timely fashion.

                   However, other CMS practices related to ASP data may inhibit
                   efficiency and result in potential errors. For example, although CMS
                   uses an automated system to collect average manufacturer prices (AMP)
                   for the Medicaid program, it relies on manual processes for ASP data.
                   In addition, CMS does not track which manufacturers are required to
                   report ASPs, receives substantial amounts of ASP data for
                   non-Part B-covered drugs, and does not receive the underlying data that
                   form the basis of manufacturer ASP submissions.
                   Almost one-fifth of labeler codes with reported ASPs were
                   associated with manufacturers that were not required to provide
                   these prices under the current system. Approximately 200 unique
                   labeler codes were associated with ASP data submissions for

 OEI-03-08-00480   AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT    ii
E X E C U T I V E             S U M M A R Y


                   Part B-covered drugs during each of the quarters under review. Nearly
                   one-fifth of these codes belonged to manufacturers that were not
                   required to provide ASP data under the current system because they did
                   not have Medicaid drug rebate agreements in effect for that quarter.

                   Some drug codes were associated only with manufacturers that did not
                   have Medicaid drug rebate agreements in place. If these manufacturers
                   chose not to report ASPs, CMS would be unable to calculate ASP-based
                   Medicare payment amounts for these drug codes.

                   In addition, there were also manufacturers of Part B-covered drugs that
                   did not have rebate agreements and did not provide ASP data to CMS.
                   Because CMS does not have pricing or utilization data for these drugs,
                   we are unable to quantify the impact this may have had on Medicare
                   payment amounts.


                   RECOMMENDATIONS
                   When setting payment amounts for drugs covered under Medicare
                   Part B, CMS relies on ASP data reported by manufacturers. This report
                   identifies several potential issues with the current ASP reporting
                   process, including (1) the timeliness of manufacturer reporting, (2) the
                   largely manual process used by CMS to collect and analyze
                   manufacturer-reported data, and (3) the legal requirements for
                   manufacturer reporting. Each of these issues introduces the potential
                   for inefficiency and errors. To ensure that Medicare payments for Part
                   B-covered drugs are accurate, timely, and reflective of all Part
                   B-covered drug sales, we recommend that CMS:
                   Develop an automated system for the collection of ASP data. CMS
                   has developed an automated system for manufacturers to submit AMPs
                   and could use that system as a template for establishing an automated
                   ASP system. Many manufacturers that submit ASPs already submit
                   AMPs; therefore, these manufacturers are familiar with the concept of an
                   automated price-reporting system. An automated system would
                   potentially limit the possibility of data entry errors, reduce the amount of
                   time it takes to calculate ASP-based payment amounts and adjust ASP
                   payment limits, and enable CMS to track ASPs with greater ease.
                   Seek a legislative change to directly require all manufacturers of
                   Part B-covered drugs to submit ASPs. CMS could work with Congress
                   to develop legislation that would directly require all manufacturers of Part
                   B-covered drugs to submit ASPs, regardless of whether the manufacturers


 OEI-03-08-00480   AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT    iii
E X E C U T I V E             S U M M A R Y


                   have Medicaid drug rebate agreements. This would ensure that Medicare
                   payment amounts were reflective of all Part B-covered drugs.

                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its comments on the draft report, CMS agreed that certain
                   refinements to the ASP reporting process are desirable to ensure that
                   Medicare payments for Part B-covered drugs are accurate and timely.

                   CMS concurred with OIG’s recommendation that it develop an
                   automated system for the collection of ASP data and agreed that an
                   automated system would be an improvement over the present one.
                   CMS also stated that it is working with contractors to improve the
                   efficiency of ASP-related processes.

                   CMS did not concur at this time with OIG’s recommendation that it
                   seek a legislative change to directly require all manufacturers of
                   Part B-covered drugs to submit ASPs. However, CMS stated that it will
                   consider this recommendation as it continues to monitor the effects of
                   current payment policies. We continue to support our recommendation
                   that CMS seek a legislative change to the ASP reporting requirements
                   as a way to ensure that Medicare payment amounts are reflective of all
                   Part B-covered drugs.




 OEI-03-08-00480   AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT   iv
   T A B L E            O F             C O N T E N T S



         EXECUTIVE SUMMARY..................................i



         INTRODUCTION ......................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
           Each quarter, over 40 percent of manufacturers submitted ASPs
           late; most late submissions were within 10 days of the deadline. . . . . . 11

           CMS implemented oversight procedures for ASP data; however,
           CMS’s data collection and analysis methods introduce the potential
           for inefficiency and errors . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

           Almost one-fifth of labeler codes with reported ASPs were associated
           with manufacturers that were not required to provide these prices
           under the current system . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
           Agency Comments and Office of Inspector General Response . . . . . . . 18


         A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
           Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To determine whether manufacturers that reported average sales
                     price (ASP) data to the Centers for Medicare & Medicaid Services
                     (CMS) did so within the timeframe required by Federal law.

                  2. To review CMS’s oversight procedures for the submission of ASP
                     data.

                  3. To quantify the number of manufacturers that provided ASPs to
                     CMS but were not required to do so under the current system.


                  BACKGROUND
                  Medicare and its beneficiaries paid over $11 billion for Part B-covered
                  drugs in 2008. 1 ASPs serve as the basis of Medicare payment for
                  Part B-covered drugs. Therefore, inaccurate, incomplete, and late ASP
                  data could have adverse effects on beneficiary and Federal Government
                  payments. This study examined the timeliness of manufacturer ASP
                  submissions, CMS’s oversight as it relates to ASP data, and ASP
                  reporting requirements.
                  Medicare Part B Coverage of Prescription Drugs
                  Although Medicare Part D covers most outpatient prescription drugs,
                  CMS continues to cover a limited number of outpatient prescription
                  drugs and biologicals (hereinafter referred to as drugs) under its Part B
                  benefit. Part B-covered drugs generally fall into the following
                  categories: drugs furnished incident to a physician’s services (e.g.,
                  injectable drugs used in connection with the treatment of cancer); drugs
                  explicitly covered by statute (e.g., some vaccines and oral anticancer
                  drugs); and drugs used in conjunction with durable medical equipment
                  (e.g., inhalation drugs). 2
                  Medicare Part B Payments for Prescription Drugs
                  To obtain Medicare payment for Part B-covered drugs, physicians and
                  suppliers submit claims to claims-processing contractors using
                  Healthcare Common Procedure Coding System (HCPCS) codes. The
                  HCPCS codes provide a standardized system for describing the specific
                  items and services provided in the delivery of health care. In the case of


                    1 Medicare expenditures for Part B drugs in 2008 were calculated using CMS’s Part B
                  Analytics and Reports (PBAR). PBAR data were downloaded on July 8, 2009.
                    2 68 Fed. Reg. 50428, 50429 (Aug. 20, 2003).




OEI-03-08-00480   AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT                      1
I N T R O D U C T I O N


                   prescription drugs, each HCPCS code defines the drug name and billing
                   unit size but does not specify the manufacturer or package size.
                   Payment Methodology for Part B Drugs and Biologicals
                   CMS pays for most Part B-covered drugs using a methodology based
                   on ASPs. Section 1847A(c) of the Social Security Act (the Act), as
                   added by the Medicare Prescription Drug, Improvement, and
                   Modernization Act of 2003 (MMA), P.L. No. 108-173, defines an ASP
                   as a manufacturer’s sales of a drug to all purchasers in the United
                   States in a calendar quarter divided by the total number of units of
                   the drug sold by the manufacturer in that same quarter. The ASP is
                   net of any price concessions, such as volume discounts, prompt pay
                   discounts, cash discounts, free goods contingent on purchase
                   requirements, chargebacks, and rebates other than those obtained
                   through the Medicaid drug rebate program. 3 Sales that are nominal
                   in amount are exempted from the ASP calculation, as are sales
                   excluded from the determination of “best price” in the Medicaid drug
                   rebate program. 4, 5
                   Medicare payment amounts for most Part B-covered prescription
                   drugs are equal to 106 percent of the volume-weighted ASPs for the
                   HCPCS codes. Medicare beneficiaries are responsible for 20 percent
                   of this amount in the form of coinsurance.

                   There is a two-quarter lag between the time when sales reflected in
                   the ASP occur and the time when these sales become the basis for
                   Medicare payment amounts. For example, first-quarter 2008 ASP
                   data from manufacturers served as the basis for third-quarter 2008
                   Medicare payment amounts for most Part B-covered drugs.
                   Manufacturer Reporting Requirements
                   ASP data. Section 1927 of the Act sets forth ASP reporting
                   requirements for manufacturers. This section originally pertained
                   only to the Medicaid program but was modified by the MMA to
                   include requirements under Medicare Part B as well. The current
                   provisions of section 1927 of the Act thus link the ASP reporting


                     3 Section 1847A(c)(3) of the Act.
                     4 Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available
                   from the manufacturer during the rebate period to any wholesaler, retailer, provider, health
                   maintenance organization, nonprofit entity, or governmental entity within the United
                   States, with certain exceptions.
                     5 Section 1847A(c)(2) of the Act.




 OEI-03-08-00480   AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT                                2
I N T R O D U C T I O N


                   requirements to a manufacturer’s entry into a Medicaid drug rebate
                   agreement. More specifically, pursuant to section 1927(b)(3) of the
                   Act, manufacturers with rebate agreements in effect must, among
                   other things, provide CMS with pricing information, including the
                   ASP for each of their Part B-covered drugs and average manufacturer
                   price (AMP) for each of their Medicaid-covered drugs, on a quarterly
                   basis. 6 However, Medicare Part B and Medicaid cover different types
                   of drugs. As a result, Medicaid rebate agreements may not be
                   applicable for certain manufacturers given the differences in
                   coverage.

                   Manufacturers report ASPs for Part B-covered drugs by national drug
                   codes (NDC), an 11-digit numeric code divided into three segments
                   identifying (1) the firm that manufactures, distributes, or repackages 7
                   the drug product (i.e., the labeler code); (2) the specific strength,
                   dosage form, and formulation of the product; and (3) the product’s
                   package size. According to section 1927(b)(3) of the Act and
                   42 CFR § 414.804(a)(5), manufacturers are required to provide CMS
                   with the ASP and volume of sales for each NDC on a quarterly basis,
                   with submissions due 30 days after the close of each quarter. Because
                   Medicare payment for Part B-covered drugs is based on HCPCS codes
                   rather than NDCs and more than one NDC may meet the definition of
                   a particular HCPCS code, CMS has developed a file that “crosswalks”
                   manufacturers’ NDCs to HCPCS codes. CMS posts the payment
                   amounts on its public Web site 2 weeks before the start of the
                   applicable quarter (i.e., 6 to 7 weeks after the submission deadline). 8
                   CMS provides the Office of Inspector General (OIG) with quarterly
                   ASP data 2 to 3 days after the payment files are posted to the Web
                   site. See Table 1 on page 4 for details on the ASP reporting timeline.




                     6 ASPs are not actually used in the calculation of Medicaid rebates.
                     7 A repackager purchases drugs from the manufacturer and typically repackages them
                   into smaller quantities.
                     8 CMS posts the quarterly ASP files to
                   http://www.cms.hhs.gov/McrPartBDrugAvgSalesPrice/.



 OEI-03-08-00480   AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT                     3
I N T R O D U C T I O N


Table 1: ASP Reporting Timeline

                                                                                       Payment Amounts
                                                                                     Provided to OIG and
                                                            Payment Amounts
                                      ASP Data Due to                                Sent to Contractors      Payment Amounts Take
 Sales Period                                                 Posted on CMS
                                                CMS                                            for Claims                    Effect
                                                                   Web Site*
                                                                                         Processing and
                                                                                                Payment*
 January 1–March 31                              April 30             June 15                       June 17                    July 1
 April 1–June 30                                 July 30        September 15                 September 17                 October 1
 July 1–September 30                         October 30          December 15                 December 17                  January 1
 October 1–December 31                       January 30              March 15                      March 17                    April 1
Source: OIG analysis of ASP reporting requirements.
*Denotes approximate dates.


                              CMS provides manufacturers a template to use when submitting ASP
                              data for Part B-covered drugs. In this template, manufacturers
                              provide data including the NDC, the manufacturer’s ASP for the
                              drug, and the number of units sold. 9 Manufacturers are not required
                              to report the underlying data (e.g., total sales, rebates, and price
                              concessions) or the exact methods used to calculate the ASP. Each
                              ASP submission must be certified by the manufacturer’s Chief
                              Executive Officer or Chief Financial Officer or an individual who has
                              been delegated the authority. 10 This certification verifies that the
                              reported ASPs were calculated accurately and that all information
                              and statements made in the submission are true, complete, and
                              current to the best of the signatory’s knowledge. 11 If a manufacturer
                              determines that a previous quarter’s submission was in error, it may
                              resubmit quarterly ASP data to CMS, which will, in turn, revise the
                              Medicare payment amount. 12
                              Manufacturers typically mail a floppy or compact disc containing ASP
                              data to CMS to fulfill their reporting requirements. CMS staff
                              manually enter all ASP data received from manufacturers into the
                              quarterly ASP files prior to calculating the Medicare payment
                              amounts for Part B-covered drugs. 13




                                 9 69 Fed. Reg. 17935, 17940 (Apr. 6, 2004).
                                 10 42 CFR § 414.804(a)(6).
                                 11 69 Fed. Reg. 17935, 17941 (Apr. 6, 2004).
                                 12 At times, CMS may make changes to Medicare payment amounts from past quarters
                              based on revised data submissions from manufacturers.
                                 13 Manual data entry refers to both typing and using the “copy and paste” function.




   OEI-03-08-00480            AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT                           4
I N T R O D U C T I O N


                   Manufacturers may face civil money penalties or suspension of their
                   rebate agreements if they knowingly provide false information about
                   their ASPs or fail to report ASP data in the required timeframe.14
                   The penalties associated with late submissions may be increased by
                   up to $10,000 for each day the ASP data are not provided. 15, 16
                   AMP data. As part of their Medicaid rebate agreements, and for
                   Federal payments to be authorized for covered outpatient drugs
                   provided under Medicaid, manufacturers must report AMPs to CMS.
                   As generally defined in section 1927(k)(1) of the Act, AMP is the
                   average price paid to the manufacturer for the drug in the United
                   States by wholesalers for drugs distributed to the retail pharmacy
                   class of trade. The AMP is generally calculated as a weighted average
                   of prices for a manufacturer’s package sizes of a drug sold during a
                   given quarter and is reported for the lowest identifiable quantity of
                   the drug.

                   Manufacturers electronically transmit AMP pricing and product data
                   for each reporting period to CMS using the automated Drug Data
                   Reporting for Medicaid system (DDR). First, manufacturers must
                   enter drug product data for each of their covered NDCs into the
                   system. Once the drug product data have been accepted by the
                   system, manufacturers are able to submit AMPs for those drugs. The
                   DDR electronically reviews manufacturers’ pricing submissions for
                   data errors, notifies manufacturers about potential problems, and
                   may reject files with detected errors. After resolving data errors (if
                   any), manufacturers certify the pricing data in the DDR. CMS
                   provides OIG with quarterly AMP data approximately 2 weeks after
                   the submission deadline (i.e., approximately 6 to 7 weeks before the
                   next quarter).
                   OIG Mandate To Monitor ASP
                   Sections 1847A(d)(1) and (2) of the Act, as added by the MMA, direct
                   OIG to undertake studies that compare ASPs to AMPs and widely




                     14 Sections 1927(b)(3)(C)(i) and (ii) of the Act.
                     15 Section 1927(b)(3)(C)(i) of the Act.
                     16 OIG is coordinating with CMS to identify manufacturers that do not submit ASP or
                   other required drug pricing data (e.g., AMP) in a timely fashion. OIG has initiated actions
                   against certain manufacturers that fail to satisfy their pricing data submission
                   requirements.



 OEI-03-08-00480   AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT                            5
I N T R O D U C T I O N


                   available market prices. 17 Related to this requirement, OIG has
                   completed numerous reports comparing ASPs to AMPs, two reports
                   comparing ASPs to widely available market prices, and one report
                   examining Medicare payment for drugs with newly available generic
                   versions. 18, 19 Although CMS has acknowledged the authority of the
                   Secretary of the Department of Health and Human Services (the
                   Secretary) to adjust ASP-based payment limits based on the results of
                   these studies, the agency has yet to make any changes as a result of
                   OIG’s work. Additionally, OIG had completed eight audits of
                   manufacturer ASP data submissions as of December 2009.


                   METHODOLOGY
                   Scope and Data Collection
                   For this study, we used CMS tracking spreadsheets, ASP pricing files, a
                   list of labeler codes associated with manufacturers required to submit
                   drug-pricing data, an interview with CMS, and a review of relevant
                   documents for 2007 and the first two quarters of 2008.

                   CMS uses one system (i.e., the tracking spreadsheet) to track the
                   submission of ASP data by manufacturers and a different system (i.e.,
                   the background file) to compile the actual ASPs. For the purposes of
                   this study, we conducted separate analyses on each of these files. To
                   examine the timeliness of ASP submissions, we analyzed the tracking
                   spreadsheets. To determine how many labeler codes were associated
                   with manufacturers that actually reported ASPs but were not required
                   to provide these prices under the current system, we analyzed the
                   quarterly ASP background files in conjunction with the Medicaid
                   participating drug manufacturer files.

                   CMS tracking spreadsheets. CMS provided us with tracking
                   spreadsheets containing the manufacturer names, the dates the ASP

                     17 Section 1847A(d)(5) of the Act generally defines widely available market price to be the
                   price that a prudent physician or supplier would pay for the drug, net of any routinely
                   available price concessions.
                     18 OEI-03-04-00430, April 2006; OEI-03-06-00370, July 2006; OEI-03-07-00140,
                   July 2007; OEI-03-07-00530, September 2007; OEI-03-08-00010, December 2007;
                   OEI-03-08-00130, May 2008; OEI-03-08-00340, August 2008; OEI-03-08-00450, December
                   2008; OEI-03-08-00530, December 2008; OEI-03-09-00050, February 2009;
                   OEI-03-09-00150, April 2009; OEI-03-09-00340, August 2009; OEI-03-09-00490, August
                   2009; OEI-03-09-00640, January 2010.
                     19 OEI-03-05-00430, June 2006; OEI-03-07-00190, July 2008; OEI-03-08-00310, August
                   2008.



 OEI-03-08-00480   AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT                         6
I N T R O D U C T I O N


                   submissions were recorded as received by CMS, and manufacturer
                   contact information. The tracking spreadsheets are organized by
                   manufacturer name and do not contain ASPs or NDCs (or, therefore,
                   labeler codes); they are files compiled by CMS and used primarily to
                   document the status of manufacturer submissions and to identify
                   manufacturers that require follow-up calls to request data.

                   We collected tracking spreadsheets from CMS that recorded
                   manufacturer submission dates for 175 manufacturers. However, seven
                   manufacturers listed on these spreadsheets did not provide ASP
                   submissions to CMS during any of the quarters under review and were
                   excluded from our analysis. These manufacturers did not submit ASPs
                   during the period under review because they either merged with or were
                   purchased by other manufacturers or do not sell Part B-covered drugs.
                   Therefore, 168 manufacturers submitted ASPs during at least one of the
                   quarters under review and were included in our analysis.

                   However, not all of these 168 manufacturers submitted ASP data in
                   each of the quarters under review. Manufacturers without a submission
                   date for a quarter were excluded from that quarter’s analysis.
                   According to CMS, some reasons manufacturers did not submit ASP
                   data every quarter include the following: manufacturers merged with
                   or were purchased by other manufacturers (as previously mentioned),
                   manufacturers did not have Medicaid rebate agreements in effect, and
                   manufacturers did not sell Part B-covered drugs during a particular
                   quarter. See Table 2 for the number of manufacturers that submitted
                   ASP data each quarter, according to CMS’s tracking spreadsheets.
                   Table 2: ASP Submissions From CMS’s Tracking Spreadsheets

                     Quarter and Year                     Number of Manufacturers That Submitted ASP Data


                     1 Quarter 2007 20
                      st
                                                                                                     152
                      nd
                     2 Quarter 2007                                                                  152
                      rd
                     3 Quarter 2007                                                                  151
                      th
                     4 Quarter 2007                                                                  154
                      st
                     1 Quarter 2008                                                                  157
                      nd
                     2 Quarter 2008                                                                  157
                   Source: OIG analysis of CMS tracking spreadsheets.



                     20 We excluded one manufacturer from our analysis of first quarter 2007 ASP data

                   because we could not determine the manufacturer’s submission date. However, CMS’s
                   background file indicates that the manufacturer did submit ASP data to CMS.



 OEI-03-08-00480   AVERAGE SALES PRICES: MANUFACTURER REPORTING     AND   CMS OVERSIGHT                     7
I N T R O D U C T I O N


                   CMS interview and document review. We conducted an interview with
                   CMS staff and reviewed relevant policy documents to gather
                   information about oversight procedures regarding ASP data
                   submissions. The interview and document review sought to identify the
                   way in which CMS collects, verifies, and analyzes data; CMS oversight
                   procedures; potential vulnerabilities to the ASP system; and the way in
                   which ASP reporting requirements relate to AMP reporting
                   requirements.

                   ASP data. CMS uses the tracking spreadsheets to record ASP
                   submission dates; it uses a different set of files (called background files)
                   to compile ASPs. The background files contain manufacturer
                   submissions for Part B-covered drugs, their billing codes, and ASPs;
                   they are updated each quarter. CMS provided us with the background
                   files for 2007 and the first two quarters of 2008. Data in these files
                   include the NDC; the manufacturer’s ASP for the drug (which factors in
                   total sales, price concessions, and sales volume); and the number of
                   units sold. These files also contain information on which NDCs are
                   included in the calculation of Medicare payment amounts. See
                   Table 3 for the number of labeler codes associated with ASP data
                   submissions for each quarter under review.
                   Table 3: Labeler Codes Associated With ASP Data Submissions


                                                               Number of Labeler Codes Associated With ASP Data
                     Quarter and Year
                                                                                                   Submissions


                      st
                     1 Quarter 2007                                                                              198
                      nd
                     2 Quarter 2007                                                                              192
                      rd
                     3 Quarter 2007                                                                              193
                      th
                     4 Quarter 2007                                                                              199
                      st
                     1 Quarter 2008                                                                              202
                      nd
                     2 Quarter 2008                                                                              207
                   Source: OIG analysis of NDC-level ASP submissions and participating drug manufacturer file.


                   We also collected CMS’s crosswalk files for the quarters under review.
                   These files link NDCs to HCPCS billing codes and could help identify




 OEI-03-08-00480   AVERAGE SALES PRICES: MANUFACTURER REPORTING       AND   CMS OVERSIGHT                         8
I N T R O D U C T I O N


                   Part B-covered drugs for which manufacturers did not submit ASP
                   data. 21
                   Medicaid participating drug manufacturer file. We obtained the list of
                   manufacturers that participated in the Medicaid drug rebate program
                   during the quarters under review from CMS. This list contains
                   participating manufacturer information, including the manufacturer’s
                   name; the labeler code (i.e., the first five digits of the NDC); and the
                   date the rebate agreement went into effect. Manufacturers of Part
                   B-covered drugs that have rebate agreements in effect are required to
                   report ASP data. One manufacturer may have multiple labeler codes.
                   Data Analysis
                   Timeliness of ASP submissions. Using CMS’s tracking spreadsheets, we
                   compared manufacturer submission dates to the statutorily defined
                   deadline to determine the number of manufacturers that submitted late
                   ASP data. In addition, we calculated the number of days that elapsed
                   before each manufacturer submitted ASP data.

                   CMS oversight. We reviewed the transcript from our interview with
                   CMS as well as relevant policy documents to determine how CMS
                   collects ASP data, how CMS verifies and analyzes ASP data, how CMS
                   implements oversight processes for ASP data, and to what extent
                   vulnerabilities exist in the ASP system.

                   Manufacturer submission requirements. Using NDC-level ASP data from
                   the background files, we identified all labeler codes (i.e., the first five
                   digits of the NDC) associated with data submissions during each of the
                   quarters under review. We identified the labeler codes only for NDCs
                   deemed valid by CMS (i.e., the NDCs included in the calculation of the
                   Medicare payment amount). For each quarter under review, we
                   compared these labeler codes to the list of labeler codes associated with
                   manufacturers that participate in the Medicaid drug rebate program
                   and were required to provide ASPs under the current system (see
                   Table 3 on page 8 for the number of labeler codes associated with ASP
                   data submissions).
                   From this comparison, we determined how many labeler codes with
                   reported ASPs were associated with manufacturers that were not
                   required to provide these prices under the current system. We also


                     21 In several of its ASP files, CMS notes that the absence or presence of a particular drug
                   does not indicate whether the drug is actually covered by Medicare Part B.



 OEI-03-08-00480   AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT                          9
I N T R O D U C T I O N


                   determined whether any HCPCS codes had Medicare payment amounts
                   that were based solely on NDCs from manufacturers without rebate
                   agreements. In addition, using the crosswalk files, background files,
                   and files containing labeler codes of manufacturers that participate in
                   the Medicaid drug rebate program, we identified manufacturers of Part
                   B-covered drugs that did not provide ASPs and also did not have rebate
                   agreements during the quarters under review.
                   Limitations
                   We did not verify the accuracy or completeness of CMS’s pricing data,
                   tracking file, or the list of manufacturers participating in the Medicaid
                   drug rebate program. In addition, we did not analyze the background
                   files to determine whether there were specific data entry errors.
                   Standards
                   This study was conducted in accordance with the “Quality Standards for
                   Inspections” approved by the Council of the Inspectors General on
                   Integrity and Efficiency.




 OEI-03-08-00480   AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT    10
             F I N D I N G S

                                                                          For each quarter under review,
  Each quarter, over 40 percent of manufacturers                          between 41 and 52 percent of
submitted ASPs late; most late submissions were                           manufacturers provided ASPs
                   within 10 days of the deadline                         after the statutorily defined due
                                                                          date. However, at least
                                    95 percent of manufacturers submitted ASP data to CMS within
                                    10 days after the deadline. Further, no more than 2 percent of
                                    manufacturer submissions each quarter were more than 30 days late.
                                    See Table 4 for a description of manufacturer submissions according to
                                    the dates recorded by CMS in its tracking spreadsheets. Late
                                    submissions did not seem to have an effect on the Medicare payment
                                    amount because there is a 6- to 7-week period between the ASP due
                                    date and the publication of the payment amounts.
Table 4: Manufacturer ASP Data Submissions From CMS’s Tracking Spreadsheets
                                                                                   Late Manufacturer Submissions*

                                   Percentage of                                             Percentage of
                                    Manufacturer               Percentage of                  Manufacturer                    Percentage of
 Quarter and Year                                               Manufacturer            Submissions More                      Manufacturer
                           Submissions Received
                             Before the Deadline*          Submissions 10 or         Than 10 Days Late and           Submissions 30 or More
                                                             Fewer Days Late           Fewer Than 30 Days                         Days Late
                                                                                                      Late
   st
 1 Quarter 2007                                    53                         43                              3                                 2
   nd
 2 Quarter 2007                                    53                         44                              3                                1**
   rd
 3 Quarter 2007                                    48                         47                              5                                1**
   th
 4 Quarter 2007                                    48                         50                              2                                 0
   st
 1 Quarter 2008                                    59                         38                              2                                 1
   nd
 2 Quarter 2008                                    48                         52                              1                                 0
Source: OIG analysis of CMS ASP tracking spreadsheets.
*Between 151 and 157 manufacturers submitted ASP data according to CMS’s tracking spreadsheet. See Table 2 on page 7 for additional detail.
**These late submissions were from the same manufacturer.
Note: Totals may not add up to 100 because of rounding.


        CMS implemented oversight procedures for ASP                      CMS has implemented several
                                                                          oversight procedures related to
              data; however, CMS’s data collection and
                                                                          payment for Part B-covered
           analysis methods introduce the potential for
                                                                          drugs. From the time it receives
                                inefficiency and errors                   a manufacturer’s submission of
                                                                          ASP data to the time payment
                                    amounts are posted on its Web site, CMS performs multiple quality
                                    assurance checks, including:
                                              monitoring when manufacturers submit data,

                                              contacting late manufacturers to remind them to submit ASP
                                               data,

          OEI-03-08-00480           AVERAGE SALES PRICES: MANUFACTURER REPORTING      AND   CMS OVERSIGHT                                 11
F I   N D I    N G   S


                             identifying the appropriate ASP data to be included in the
                              Medicare payment amount,

                             identifying new drugs or billing codes that may be needed for the
                              upcoming quarter, and

                             determining whether the Medicare payment amount for specific
                              HCPCS codes underwent dramatic changes from quarter to
                              quarter.

                     CMS also posts the quarterly Medicare payment amounts to its Web
                     site several days before providing the payment files to the
                     claims-processing contractor. This step allows manufacturers to review
                     the Medicare payment amounts and resubmit pricing data if
                     manufacturers identify errors before the contractor can download the
                     new prices to its payment system. CMS believes this process has
                     reduced the need to revise and retract payment files because
                     manufacturers can identify errors before the prices go into effect.
                     Finally, CMS is coordinating with OIG to identify manufacturers that
                     do not submit ASP or other required drug pricing data (e.g., AMP) in a
                     timely fashion.
                     CMS’s methods for collecting and analyzing ASP data could reduce
                     efficiency and lead to potential errors
                     Although CMS has implemented oversight procedures related to
                     payment for Part B-covered drugs, it relies on manual data entry, does
                     not proactively identify which manufacturers are required to report
                     ASPs, receives substantial amounts of ASP data for non-Part B-covered
                     drugs, and does not receive the underlying data that form the basis of
                     manufacturer ASP submissions. 22 These factors may inhibit efficiency
                     and result in potential errors.

                     Manual data entry. Unlike its system for reporting AMP data, CMS does
                     not have an automated system for entering ASP data; staff manually
                     enter every data element from manufacturer submissions into the ASP
                     files, a process that could introduce errors. Previous OIG work with
                     ASP data identified multiple errors that needed to be corrected before
                     any analysis could be conducted, including:

                             NDCs missing the first few digits (generally this applies only to
                              NDCs where the first digit is zero),

                       22 Manufacturers are not obligated to report the underlying data used to arrive at their
                     ASPs.



 OEI-03-08-00480     AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT                       12
F I   N D I     N G   S


                              NDCs with extra or missing digits, and

                              NDCs that contain a dash or other incorrect text. 23
                      In addition, manual data entry is time consuming and increases the
                      amount of time between when manufacturers submit ASPs and when
                      CMS calculates the Medicare payment amounts.

                      Tracking methods. CMS does not maintain a comprehensive list of
                      manufacturers that are required to submit ASP data; it tracks only
                      those that actually make submissions. The tracking spreadsheets
                      include only manufacturers that made at least one quarterly ASP
                      submission. This method of tracking is based on previous submissions;
                      it does not take into account the manufacturers that are required to
                      submit ASPs. In addition, CMS would not have any information in its
                      tracking spreadsheet on manufacturers without a rebate agreement
                      that did not submit ASP data.

                      Data for non-Part B-covered drugs. According to CMS, drug
                      manufacturers submitted ASP data for over 8,100 NDCs each quarter;
                      in any given quarter, 3,000 of these NDCs were not actually included in
                      the calculation of Medicare payment amounts. These extra data further
                      complicate the process because CMS staff spend substantial time
                      determining which of these NDCs are Part B-covered drugs (typically
                      using manual methods). In contrast, the automated system used to
                      collect AMP data requires manufacturers to submit and certify valid
                      product data for NDCs prior to providing pricing data.

                      Data transparency. Manufacturers are under no obligation to report to
                      CMS the underlying data that form their ASP submissions. CMS
                      receives only the ASP, the NDC, the number of units, and some product
                      information. Manufacturers are not required to provide any data on
                      total sales, price concessions, or type of customer. Therefore, CMS is
                      unable to verify how manufacturers arrive at the ASPs they submit.

                                                                               Approximately 200 unique
 Almost one-fifth of labeler codes with reported                               labeler codes were associated
 ASPs were associated with manufacturers that                                  with ASP data submissions for
were not required to provide these prices under the                            Part B-covered drugs during
                                    current system                             each of the quarters under
                                                                               review. Nearly one-fifth of these

                        23 OIG identified these errors during analysis for the reports comparing ASPs to AMPs.
                      See page 6 for these reports.



  OEI-03-08-00480     AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT                     13
F I   N D I    N G   S


                     codes belonged to manufacturers that did not have to provide ASP data
                     under the current system because they did not have a Medicaid drug
                     rebate agreement in effect for that quarter. See Table 5 for the
                     percentage of labeler codes associated with manufacturers that
                     submitted ASP data but were not required to do so under the current
                     system.
                     Table 5: Manufacturer Requirements for Reporting ASPs
                                                                  Percentage of Labeler Codes Associated With
                      Quarter and Year                         Manufacturers That Submitted ASPs but Were Not
                                                                  Required To Do So Under the Current System*
                         st
                      1 Quarter 2007                                                                                   17
                         nd
                      2 Quarter 2007                                                                                   17
                         rd
                      3 Quarter 2007                                                                                   17
                         th
                      4 Quarter 2007                                                                                   18
                         st
                      1 Quarter 2008                                                                                   18
                         nd
                      2 Quarter 2008                                                                                   17
                     *There were between 192 and 207 labeler codes with ASP data submissions for the quarters under review.
                     See Table 3 on page 8 for additional detail.
                     Source: OIG analysis of manufacturers participating in the Medicaid drug rebate program and ASP data.
                     Some HCPCS codes were crosswalked only to NDCs of manufacturers that
                     were not required to report ASPs under the current system
                     Medicare payment amounts in the third quarter of 2008 for some
                     HCPCS codes (one version of immune globulin, for example) were based
                     solely on NDCs from manufacturers that did not have rebate
                     agreements in effect in the first quarter of 2008. If these manufacturers
                     chose not to report ASPs, CMS would be unable to calculate ASP-based
                     Medicare payment amounts for these HCPCS codes. 24
                     A number of manufacturers of Part B-covered drugs were not required to
                     report ASPs and did not provide ASP data to CMS
                     We identified between 66 and 82 labeler codes during the quarters
                     under review that were associated with manufacturers that had
                     products listed in the background and crosswalk files (i.e., were Part
                     B-covered drugs) but (1) did not report ASP data for a particular quarter
                     and (2) did not have a rebate agreement in effect for that quarter.
                     Approximately one-third of these labeler codes were associated with
                     repackagers (i.e., companies that repackage drugs purchased from


                         24 According to CMS, in the absence of reported ASP data, it still calculates a Medicare

                     payment amount to ensure timely and efficient claims processing. In these cases, CMS uses
                     other published sources of pricing data.



 OEI-03-08-00480     AVERAGE SALES PRICES: MANUFACTURER REPORTING      AND   CMS OVERSIGHT                                    14
F I   N D I    N G   S


                     manufacturers into smaller quantities). Because CMS does not have
                     pricing or utilization data for these drugs, we are unable to quantify the
                     impact this may have had on Medicare payment amounts.




 OEI-03-08-00480     AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT    15
   R E C O M M E N D A T I O N S



                  When setting payment amounts for drugs covered under Medicare
                  Part B, CMS relies on ASP data reported by manufacturers. This report
                  identifies several potential issues with the current ASP reporting
                  process, including (1) the timeliness of manufacturer reporting, (2) the
                  largely manual process used by CMS to collect and analyze
                  manufacturer-reported data, and (3) the legal requirements for
                  manufacturer reporting.

                  For example, over 40 percent of manufacturers failed to submit ASPs by
                  the statutorily defined deadline each quarter. Although this did not
                  seem to have a significant impact on Medicare payment amounts during
                  the quarters under review, CMS’s ability to calculate appropriate
                  payment amounts is reliant upon timely manufacturer data
                  submissions.

                  In addition, CMS’s process for data collection and analysis could lead to
                  inefficiency and errors. Unlike the system CMS uses to collect AMP
                  data, the agency does not have an automated process to collect ASPs.
                  An automated system could reduce the time required to calculate
                  payment amounts, validate that manufacturers are submitting data for
                  Part B-covered drugs, and develop a more comprehensive list of
                  manufacturers required to report ASPs.

                  Finally, a number of manufacturers that currently report ASPs do not
                  have Medicaid rebate agreements in place and therefore are not
                  required to do so under the current system. Other manufacturers with
                  Part B-covered drugs are not reporting ASPs at all. Therefore, for
                  certain drugs, Medicare payment amounts may not include ASPs for all
                  drugs on the market.

                  Each of these issues introduces the potential for inefficiency and errors.
                  To ensure that Medicare payment for Part B-covered drugs is accurate,
                  timely, and reflective of all Part B-covered drug sales, we recommend
                  that CMS:
                  Develop an automated system for the collection of ASP data
                  CMS has developed an automated system for manufacturers to submit
                  AMPs and could use that system as a template for establishing an
                  automated ASP system. Many manufacturers that submit ASPs
                  already submit AMPs; therefore, these manufacturers are familiar with
                  the concept of an automated price-reporting system. An automated
                  system could limit the possibility of data entry errors, reduce the


OEI-03-08-00480   AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT    16
R E C O M M E N D A T I O N S


                   amount of time it takes to calculate ASP-based payment amounts and
                   adjust ASP payment limits, and enable CMS to track ASPs with greater
                   ease.

                   An automated system would make the process more efficient and could
                   help ensure data quality. Similar to the AMP system, an automated
                   system for ASP collection would include manufacturer submission and
                   certification of NDCs prior to accepting the associated pricing data.

                   The increased efficiency resulting from the implementation of an
                   automated system could facilitate the adjustment of Medicare payment
                   amounts based on the results of OIG ASP-to-AMP price comparisons.
                   CMS has acknowledged the Secretary’s authority to adjust ASP-based
                   payment limits based on the results of these studies. 25 However, the
                   agency has yet to make any changes as a result of OIG’s work, citing the
                   timing of OIG pricing comparisons as one potential obstacle to adjusting
                   payment amounts. 26 Therefore, if OIG can provide the results of its
                   pricing comparisons to CMS sooner, it could enable the adjustment of
                   Medicare payment amounts based on these comparisons.
                   Seek a legislative change to directly require all manufacturers of
                   Part B-covered drugs to submit ASPs
                   During the quarters under review, almost one-fifth of labeler codes with
                   reported ASP data were associated with manufacturers that were not
                   required to provide ASPs under the current system because they did not
                   have Medicaid rebate agreements in place. Also, there may be
                   additional manufacturers of Part B-covered drugs that are not
                   submitting ASP data because they do not have a rebate agreement in
                   effect, yet their products are potentially eligible for Part B payments.
                   CMS could work with Congress to develop legislation that would
                   directly require all manufacturers of Part B-covered drugs to submit
                   ASPs, regardless of whether the manufacturers have Medicaid drug
                   rebate agreements. This would ensure that Medicare payment amounts
                   were reflective of all Part B-covered drugs.




                     25 OEI-03-04-00430, April 2006.
                     26 OEI-03-07-00140, July 2007.




 OEI-03-08-00480   AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT   17
R E C O M M E N D A T I O N S



                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its comments on the draft report, CMS agreed that certain
                   refinements to the ASP reporting process are desirable to ensure that
                   Medicare payments for Part B-covered drugs are accurate and timely.

                   CMS concurred with OIG’s recommendation that it develop an
                   automated system for the collection of ASP data and agreed that an
                   automated system would be an improvement over the present one.
                   CMS noted that it recognized the risks with the current system and
                   understands the need to develop an automated solution. CMS also
                   stated that it is working with contractors to improve the efficiency of
                   ASP-related processes.

                   CMS did not concur at this time with OIG’s recommendation that it
                   seek a legislative change to directly require all manufacturers of
                   Part B-covered drugs to submit ASPs. However, CMS stated that it will
                   consider this recommendation as it continues to monitor the effects of
                   current payment policies. We continue to support our recommendation
                   that CMS seek a legislative change to the ASP reporting requirements
                   as a way to ensure that Medicare payment amounts are reflective of all
                   Part B-covered drugs.

                   CMS also provided several technical comments. Based on these
                   comments, we made a few minor revisions to the report, where
                   appropriate. CMS’s comments are provided in the Appendix.




 OEI-03-08-00480   AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT    18
     A P PEN D                                  x

     Agency Comments




            r.p.'1Ir:~.,




        (         ~         DEPARTMENT OF HEALTH: & HUMAN SERVICES                                     Centers for Medlcar. & Medicaid Service.


            ,S~                                                                                        Administrator
                                                                                                       Washington. DC 20201




                           TO:           Daniel R. Levinson
                                         Inspector General

                           FROM:          Charlen~Frizzera /S/
                                          Acting Administraior

                           SUBJECT:       Office of1nsp~ctor General Draft Report (OIG): "Average Sales Prices:
                                          Manufacturer Reporting and CMS Oversight" (OEI-03-08-00480)


                           The.Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to r~view and
                           comment on the OIG report entitled, "Average Sales Prices: Manufacturer Reporting and eMS
                           Ov~rsight." We appreciate the OIG'& continuing efforts to examine payments made under the
                           average sales price (ASP) methodology. TIle OIG report presents findings from a review of
                           manufacturer submitted ASP data and of eMS internal procedures .used to collect, array, -and
                           manage that data irt order to calculate quarterly Part B drug payment limits.

                           The report had three objectives: J) to determine whether manufacturers that reported ASP data to
                           eMS did so within the timeframe required by Feilerallaw; 2) to review eMS' oversight
                           procedures for the submission of ASP data; and 3) to quantify the number of manufacturers that
                           provided ASPs to eMS but were not required to do so under the current system.

                           The report had three major findings: 1) each quarter over 40 percent of manufacturers submitted
                           ASPs late although most late submissions were submitted within 10 days of the deadline;
                           2) CMS implemented oversight procedures for ASP, data but CMS' data collection and analysis
                           methods introduce the potential for inefficiency and errors; and 3) almost one-fifth of labeler
                           codes with reported ASPs were associated with manufacturers that were not required to provide
                           these prices under the current system.

                           The OIG expressed concerns about the following aspects of the ASP reporting process: 1) the
                           timeliness of manufacturer reporting; 2) the largely manual process used by CMS to collect and
                           analyze manufacturer-reported data; and 3) the legal requirements for manufacturer reporting.
                           The report finds that each of these issues introduces the potential for inefficiency and errors. To
                           ensure that Medicare payments for Part B-covered drugs are accurate and timely, we agree that
                           certain refinements to the process are desirable.




OEI-03-0S-004S0                AVERAGE SALES PRICES: MANUFACTURER REPORTING AND eMS OVERSIGHT                                                     19
A P P    E N D I X




 OEI-03-08-00480   AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT   20
A P P E N D I X
A   A C K N O W ~L E AD G M E N T                                S
    P P E N D I X ~ A



                   This report was prepared under the direction of Robert A. Vito,
                   Regional Inspector General for Evaluation and Inspections in the
                   Philadelphia regional office, and David E. Tawes, Director, Prescription
                   Drug Pricing Unit.

                   Edward K. Burley served as the team leader for this study. Other
                   principal Office of Evaluation and Inspections staff from the
                   Philadelphia regional office who contributed to the report include
                   Eric M. Biersmith; other central office staff who contributed include
                   Scott Manley.




 OEI-03-08-00480   AVERAGE SALES PRICES: MANUFACTURER REPORTING   AND   CMS OVERSIGHT      21
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
